VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                      Inspection of

                                                                    VA Regional Office

                                                                      Reno, Nevada





                                                                                  June 10, 2014
                                                                                  13-04324-170

                                ACRONYMS

FY          Fiscal Year
OIG         Office of Inspector General
RVSR        Rating Veterans Service Representative
SAO         Systematic Analysis of Operations
SMC         Special Monthly Compensation
STAR        Systematic Technical Accuracy Review
TBI         Traumatic Brain Injury
VARO        Veterans Affairs Regional Office
VBA         Veterans Benefits Administration
VSC         Veterans Service Center
WMP         Workload Management Plan




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline)

                 Report Highlights: Inspection of the 

                 VA Regional Office, Reno, Nevada 


Why We Did This Review                          15 of 30 benefit reduction cases because
                                                management did not prioritize this work.
The Veterans Benefits Administration
(VBA) has 56 VA Regional Offices                What We Recommend
(VAROs) and a Veterans Service Center in
Cheyenne, Wyoming, that process disability      We recommend the VARO Director
claims and provide a range of services to       implement a plan to ensure timely and
veterans. We evaluated the Reno VARO to         appropriate action on reminder notifications
see how well it accomplishes this mission.      for medical reexaminations, review and take
                                                appropriate action on the 275 temporary
What We Found                                   100 percent disability evaluations remaining
                                                from our inspection universe, ensure
Overall, VARO staff did not accurately          required staff receive training on identifying
process 36 (51 percent) of 71 disability        insufficient TBI examinations and properly
claims reviewed. We sampled claims we           processing SMC and ancillary benefit
considered at higher risk of processing         claims, provide oversight and training on
errors, thus these results do not represent     SAOs, and develop a plan to prioritize
this VARO’s overall accuracy in processing      action on benefit reduction cases.
disability claims. Claims processing that
lacks compliance with VBA procedures can        Agency Comments
risk paying inaccurate financial benefits.
                                                The Director of the Reno VARO concurred
Twenty-two of 29 temporary 100 percent          with all recommendations. Management’s
disability evaluations were inaccurate,         planned actions are responsive and we will
generally because staff did not timely act on   follow up as required on all actions.
reminder     notifications     for    medical
reexaminations. VARO staff incorrectly
processed 4 of 14 traumatic brain injury
(TBI) claims, primarily by using insufficient
medical examination reports. VARO staff
also incorrectly processed 10 of 28 special
monthly compensation (SMC) and ancillary
benefit claims due to lack of training.                   LINDA A. HALLIDAY
                                                        Assistant Inspector General
Nine of 11 Systematic Analyses of                       for Audits and Evaluations
Operations (SAO) were untimely; 7 of the
9 were also incomplete. Management did
not timely complete the SAOs scheduled for
fiscal year 2014 due to lack of oversight.
Further, VARO staff delayed completion of
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1

Results and Recommendations ........................................................................................................2

    I. Disability Claims Processing...................................................................................................2

    Finding 1              Reno VARO Could Improve Disability Claims Processing Accuracy...............2

    Recommendations .......................................................................................................................8

    II. Management Controls ..........................................................................................................10
    Finding 2              VARO Lacked Oversight To Ensure Timely SAOs .........................................10
    Recommendations .....................................................................................................................11
    Finding 3              VARO Lacked Oversight To Ensure Immediate Action On Benefit
                           Reductions.........................................................................................................12

    Recommendation.......................................................................................................................13

Appendix A                 VARO Profile and Scope of Inspection ............................................................14
Appendix B                 Inspection Summary..........................................................................................16
Appendix C                 VARO Director’s Comments............................................................................17
Appendix D                 OIG Contact and Staff Acknowledgments........................................................20
Appendix E                 Report Distribution ...........................................................................................21
                                           Inspection of the VA Regional Office, Reno, Nevada



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector
                    General’s (OIG) efforts to ensure our Nation’s veterans receive timely
                    and accurate benefits and services. The Benefits Inspection Divisions
                    contribute to improved management of benefits processing activities
                    and veterans’ services by conducting onsite inspections at VA Regional
                    Offices (VAROs). These independent inspections provide recurring
                    oversight focused on disability compensation claims processing and
                    performance of Veterans Service Center (VSC) operations. The
                    objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of
                       providing veterans with access to high-quality benefits and
                       services.
                    	 Determine whether management controls ensure compliance with
                       VA regulations and policies; assist management in achieving
                       program goals; and minimize the risk of fraud, waste, and other
                       abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or
                    allegations referred by VA employees, members of Congress, or other
                    stakeholders.

Other Information   	 Appendix A includes details on the VARO and the scope of our
                       inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Reno VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                  1
                                                   Inspection of the VA Regional Office, Reno, Nevada



                       RESULTS AND RECOMMENDATIONS
                       I. Disability Claims Processing
Claims Processing      The OIG Benefits Inspection team focused on accuracy in processing
Accuracy               temporary 100 percent disability evaluations, traumatic brain injury
                       (TBI) claims, and special monthly compensation (SMC) and ancillary
                       benefits. We evaluated these claims processing issues and assessed
                       their effect on veterans’ benefits.

 Finding 1             Reno VARO Could Improve Disability Claims Processing
                       Accuracy

                       The Reno VARO did not consistently process temporary 100 percent
                       disability evaluations, TBI-related cases, or entitlements to SMC and
                       ancillary benefits. Overall, VARO staff incorrectly processed 36 of the
                       total 71 disability claims we sampled, resulting in 244 improper
                       monthly payments to 12 veterans totaling $65,419.

                       We sampled claims related only to specific conditions that we
                       considered at higher risk of processing errors. As a result, the errors
                       identified do not represent the universe of disability claims or the
                       overall accuracy rate at this VARO. The table below reflects the errors
                       affecting, and those with the potential to affect, veterans’ benefits
                       processed at the Reno VARO.

               Table 1. Reno VARO Disability Claims Processing Accuracy

       Type of Claim          Reviewed      Claims Inaccurately    Claims Inaccurately     Total Claims
                                            Processed that         Processed with the      Inaccurately
                                            Affected Veterans’     Potential To Affect     Processed
                                            Benefits               Veterans’ Benefits
   Temporary 100 Percent
                                   29                 5                     17                    22
   Disability Evaluations
        TBI Claims                 14                 0                       4                    4
 SMC and Ancillary Benefits       28                  7                       3                   10
           Total                   71                12                     24                    36
 Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least 18 months, TBI
 disability claims completed in the fourth quarter FY 2013, and SMC and ancillary benefits claims completed
 in FY 2013.

 Temporary             VARO staff incorrectly processed 22 of 29 temporary 100 percent
 100 Percent           disability evaluations we reviewed. VBA policy requires a temporary
 Disability
 Evaluations
                       100 percent disability evaluation for a veteran’s service-connected
                       disability following surgery or when specific treatment is needed. At

 VA Office of Inspector General                                                                               2
                                            Inspection of the VA Regional Office, Reno, Nevada



                    the end of a mandated period of convalescence or treatment, VARO
                    staff must request a follow-up medical examination to help determine
                    whether to continue the veteran’s 100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must
                    schedule a medical reexamination. As a suspense diary matures, the
                    electronic system generates a reminder notification to alert VSC staff to
                    schedule the medical reexamination. VSC staff then have 30 days to
                    process the reminder notification by establishing an appropriate control
                    to initiate action.

                    Without effective management of these temporary 100 percent
                    disability ratings, VBA is at increased risk of paying inaccurate
                    financial benefits. Available medical evidence showed 5 of the
                    22 processing errors we identified affected benefits and resulted in
                    17 improper monthly overpayments to 4 veterans totaling $23,165.
                    These improper payments occurred from June 2013 until January 2014.
                    Details on the most significant overpayments follow.

                    	 A Rating Veterans Service Representative (RVSR) granted a
                       temporary 100 percent evaluation to a veteran for a total right knee
                       replacement from April 11, 2012. At the time of our review,
                       VARO staff had not taken action on an April 2013 reminder
                       notification to schedule a reexamination. As a result, VA overpaid
                       the veteran $11,792 over a period of 7 months. Monthly benefits
                       will continue to be paid at the 100 percent disability rate if no
                       action is taken to assess potential change in the veteran’s disability
                       through required medical reexamination.
                    	 An RVSR proposed reducing a veteran’s temporary 100 percent
                       evaluation for residuals of prostate cancer to 60 percent disabling
                       effective June 1, 2013. At the time of our review, VARO staff had
                       not taken action on the proposed reduction. As a result, VA
                       overpaid the veteran $8,270 over a period of 5 months and monthly
                       benefits will continue to be paid at the 100 percent disability rate if
                       no corrective action is taken.

                    The remaining 17 of the total 22 errors had the potential to affect
                    veterans’ benefits. We could not determine whether the evaluations
                    would have continued because the veterans’ claims folders did not
                    contain medical evidence needed to evaluate each case. Fifteen of
                    these errors occurred when VSC staff received reminder notifications
                    but did not schedule medical reexaminations as required. In these
                    cases, claims processing delays ranged from 1 month to 1 year and

VA Office of Inspector General                                                                   3
                                           Inspection of the VA Regional Office, Reno, Nevada



                    2 months. An average of 8 months elapsed from the time staff should
                    have scheduled these medical reexaminations until January 1, 2014.

                    In one of the two remaining cases that had the potential to affect
                    veterans’ benefits, staff did not timely follow up on a proposed
                    reduction. VARO staff received a timely request from the veteran for a
                    personal hearing. However, at the time of our review, more than a year
                    had passed and staff had not yet scheduled the hearing. In the
                    remaining case, staff did not take action to decide a claim upon receipt
                    of a medical reexamination report. The VARO received this report on
                    September 21, 2013, for a disability that had been assigned a temporary
                    100 percent evaluation. However, VARO staff had not taken action to
                    reevaluate the claim at the time of our review.

                    Generally, processing inaccuracies resulted from a lack of VARO
                    management oversight to ensure timely action on these cases. Further,
                    management and staff we interviewed noted that the Western Area
                    Office gave the VARO instructions to complete specific cases;
                    however, the instructions did not include taking required or timely
                    action to schedule medical reexaminations after receiving reminder
                    notifications. As a result, the VARO may have continued benefits
                    payments and overpaid veterans who are no longer entitled to
                    temporary 100 percent evaluations. We provided VARO management
                    with 275 claims remaining from our universe of 304 for its review to
                    determine if action is required.

                    VARO management initially concurred with the errors we found in all
                    22 cases but later withdrew all concurrences, responding that
                    Notification of Errors solely based on timeliness were not an
                    appropriate issue for concurrence or non-concurrence. When asked
                    why the office changed its responses, the VARO Director stated the
                    changes were directed by VBA’s Compensation Service and Western
                    Area Headquarters. It is clearly within the OIG’s purview to provide
                    oversight of this high-risk area of temporary 100 percent disability
                    evaluation processing. Management’s lack of response is not helpful in
                    addressing the errors we identify as a means of improving claims
                    processing and ensuring accurate benefits delivery.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, Reno,
Prior VA OIG        Nevada (Report No. 11-00517-204, June 24, 2011), we reported VARO
Inspection
                    staff incorrectly processed 18 of 30 temporary 100 percent disability
                    evaluations we reviewed. The most frequent processing inaccuracies
                    occurred because staff did not enter suspense diaries in the electronic
                    system to ensure they received reminder notifications to schedule
                    medical reexaminations.      VARO management did not provide
                    oversight to ensure VSC staff entered suspense diaries. We did not

VA Office of Inspector General                                                                  4
                                            Inspection of the VA Regional Office, Reno, Nevada



                    provide a recommendation as VBA had implemented a national review
                    plan to address this issue. We stated that we would monitor
                    implementation progress and gauge effectiveness of this plan as we
                    move forward in conducting our individual VARO inspections.

                    During this current inspection, we did not identify any cases where
                    staff did not input suspense diaries in the electronic system to generate
                    reminders to follow up on temporary 100 percent disability evaluations.
                    As such, we made no further recommendation in this area.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of
                    brain function caused by an external force. The major residual
                    disabilities of TBI fall into three main categories—physical, cognitive,
                    and behavioral. VBA policy requires staff to evaluate these residual
                    disabilities. Additionally, VBA policy requires that Decision Review
                    Officers and RVSRs assigned to the appeals team, the special
                    operations team, and the quality review team complete TBI training.

                    In response to a recommendation in our summary report, Systemic
                    Issues Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring the accuracy of TBI claims
                    decisions. In May 2011, VBA provided guidance to VARO Directors
                    to implement a policy requiring a second signature on each TBI case an
                    RVSR evaluates until the RVSR demonstrates 90 percent accuracy in
                    TBI claims processing.         The policy indicates second-signature
                    reviewers come from the same pool of staff as those used to conduct
                    local station quality reviews.

                    We determined VARO staff incorrectly processed 4 of 14 TBI claims.
                    In all four cases, VSC staff prematurely evaluated TBI residuals using
                    insufficient VA medical examination reports. Specifically, the medical
                    examiners did not delineate which symptoms were due to TBI and
                    which were due to a coexisting mental condition. Also, in two of the
                    cases, examiners did not properly complete the disability benefits
                    questionnaires as required when additional symptoms were present.
                    All of the errors had the potential to affect veterans’ benefits. Neither
                    VARO staff nor we can ascertain all of the residual disabilities of a TBI
                    without an adequate or complete medical examination.

                    Generally, these errors occurred because VSC staff misinterpreted
                    VBA policy for rating a TBI with a coexisting mental condition. A
                    review of VARO training records showed that only one VSC employee
                    completed TBI-related training from November 2011 to the time of our
                    inspection. Further, there were no procedures in place to review and

VA Office of Inspector General                                                                   5
                                            Inspection of the VA Regional Office, Reno, Nevada



                    return insufficient TBI examination reports. As a result, veterans may
                    not have always received correct benefit decisions.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Reno,
Prior VA OIG        Nevada (Report No. 11-00517-204, June 24, 2011), we also determined
Inspection          errors in processing TBI claims occurred due to RVSRs prematurely
                    evaluating TBI-related disabilities based on insufficient medical
                    examination reports. In response to our recommendations, the VARO
                    Director agreed to ensure staff received refresher training on
                    identifying insufficient TBI examination reports, develop and
                    implement a process to return insufficient reports to medical examiners,
                    and establish an additional level of review for all TBI claims prior to
                    finalizing rating decisions. The OIG closed these recommendations
                    based on VBA’s national second-signature policy, as well as the
                    VARO’s documentation of TBI training from July through October
                    2011, and a plan to ensure staff returned insufficient exams to the
                    appropriate VA medical facilities.

                    Interviews with VSC staff revealed that the additional reviews of TBI
                    medical examinations for adequacy were effective. They also indicated
                    that the VARO discontinued these reviews in December 2012 due to
                    other organizational priorities. During our February 2014 inspection,
                    we again identified errors in processing TBI claims due to staff using
                    insufficient examination reports.

Special Monthly     As the concept of rating disabilities evolved, VBA realized that for
Compensation        certain types of disabilities, the basic rate of compensation was not
and Ancillary       sufficient for the level of disability present. Therefore, VBA
Benefits
                    established SMC to recognize the severity of certain disabilities or
                    combinations of disabilities by adding additional compensation to the
                    basic rate of payment. SMC represents payments for “quality of life”
                    issues, such as the loss of an eye or limb, or the need to rely on others
                    for the activities of daily life, like bathing or eating. Generally, VBA
                    grants entitlement to SMC when the following conditions exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions,
                       or extremities
                    	 Disabilities that render the veteran permanently bedridden or in
                       need of aid and attendance
                    	 Combinations of severe disabilities that significantly affect
                       locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as
                       50 to 100 percent disabling


VA Office of Inspector General                                                                   6
                                           Inspection of the VA Regional Office, Reno, Nevada



                    	 Existence of multiple disabilities that render the veteran in need of
                       such a degree of special skilled assistance that, without it, the
                       veteran would be permanently confined to a skilled-care nursing
                       home

                    Ancillary benefits are secondary benefits that are considered when
                    evaluating claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under section 35, title 38,
                       United States Code
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment
                       Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We focused our review
                    on whether VARO staff accurately processed entitlement to SMC and
                    ancillary benefits associated with anatomical loss or loss of use of two
                    or more extremities, or bilateral blindness with visual acuity of
                    5/200 or worse.

                    VARO staff incorrectly processed 10 of 28 claims involving SMC and
                    ancillary benefits—7 affected veterans’ benefits and resulted in
                    underpayments of $42,254, representing 227 improper monthly
                    payments. Details on the two most significant underpayments follow.

                    	 An RVSR did not grant SMC for a veteran’s additional permanent
                       disability independently evaluated at 50 percent disabling, and
                       entitlement to specially adapted housing as required by VBA
                       policy. As a result, VA underpaid the veteran $17,830 over a
                       period of 8 years and 11 months.
                    	 An RVSR incorrectly evaluated a veteran’s bladder condition as
                       30 percent disabling when medical evidence showed that the
                       condition warranted a 60 percent disability evaluation.
                       Subsequently, the RVSR did not grant SMC for the veteran’s
                       additional permanent disability, independently evaluated at
                       60 percent, as required by VBA policy. As a result, VA underpaid
                       the veteran $7,410 over a period of 2 years and 4 months.

                    The remaining three errors had the potential to affect veterans’
                    benefits. Summaries of those errors follow.



VA Office of Inspector General                                                                  7
                                           Inspection of the VA Regional Office, Reno, Nevada



                    	 In one error, an RVSR did not grant entitlement to specially
                       adapted housing, a benefit worth up to $67,555. The RVSR also
                       did not grant entitlement to an automobile and adaptive equipment
                       allowance, a benefit currently worth up to $19,817.
                    	 In one error, an RVSR used the incorrect SMC codes to determine a
                       veteran’s disability benefits payments. Although this error did not
                       affect the veteran’s monthly benefits, it may affect future monthly
                       benefits. For example, if the veteran becomes hospitalized at
                       government expense, his monthly payment would be reduced to an
                       incorrect SMC rate.
                    	 In one error, an RVSR incorrectly continued entitlement to
                       additional SMC without required medical evidence. Because the
                       claims folder did not contain sufficient medical evidence, neither
                       we nor VARO staff could determine the correct SMC level for this
                       veteran.

                    Generally, errors related to SMC and ancillary benefits were due to a
                    lack of training.      The VARO provided training records from
                    October 2012 to the present that did not show training for SMC and
                    ancillary benefits. VSC management and staff stated they could not
                    remember the last time VARO staff received training on SMC and
                    ancillary benefits. Staff also expressed confusion regarding VBA’s
                    policy for granting SMC for additional permanent disabilities
                    independently evaluated at 50 percent or more. Six of the incorrect
                    decisions we identified occurred because staff did not follow this
                    policy. As a result, veterans did not always receive accurate benefit
                    payments. The training deficiencies identified, if unaddressed, increase
                    the risks associated with VBA’s efforts to consistently process and
                    ensure the accuracy of claims processing.

                    Recommendations
                    1.	 We recommend the Reno VA Regional Office Director implement
                        a plan to ensure timely and appropriate action on reminder
                        notifications for medical reexaminations.
                    2.	 We recommend the Reno VA Regional Office Director conduct a
                        review of the 275 temporary 100 percent disability evaluations
                        remaining from our inspection universe and take appropriate action.
                    3.	 We recommend the Reno VA Regional Office Director ensure
                        required staff receive refresher training on how to identify
                        insufficient traumatic brain injury medical examination reports and
                        return them to the appropriate VA medical facilities for correction.



VA Office of Inspector General                                                                  8
                                           Inspection of the VA Regional Office, Reno, Nevada



                    4.	 We recommend the Reno VA Regional Office Director conduct
                        training on the proper processing of special monthly compensation
                        and ancillary benefits claims and implement a plan to assess the
                        effectiveness of that training.

Management          The VARO Director concurred with our recommendations and
Comments            amended the workload management plan to include a review of
                    reminder notifications related to medical reexaminations. Management
                    created a centralized spreadsheet to track and review the 275 temporary
                    100 percent disability claims remaining from our inspection universe
                    and expects completion by August 2014. Further, VARO staff will
                    receive refresher training on how to properly identify insufficient TBI
                    medical examinations and process SMC and ancillary benefits claims.
                    The Director anticipates completion of this training by
                    August 31, 2014.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                                  9
                                           Inspection of the VA Regional Office, Reno, Nevada



                    II. Management Controls
Systematic          We assessed whether VARO management had adequate controls in
Analysis of         place to ensure complete and timely submission of Systematic
Operations
                    Analyses of Operations (SAOs). We also considered whether VSC
                    staff used adequate data to support analyses and recommendations
                    identified within each SAO. An SAO is a formal analysis of an
                    organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and to propose corrective actions.       VARO
                    management must prepare annual SAO schedules designating the staff
                    required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including
                    completing 11 SAOs annually.

Finding 2           VARO Lacked Oversight To Ensure Timely SAOs

                    Nine of the 11 SAOs were untimely. The delays ranged from 94 to
                    366 days past the assigned due dates. Seven of the nine untimely
                    SAOs were also incomplete. Due to competing priorities, VARO
                    management did not provide adequate oversight and training to staff
                    assigned to complete SAOs.

                    VBA policy requires that the VSC Manager establish the annual SAO
                    schedule by October 1st of each fiscal year (FY). We notified VARO
                    management of our inspection on January 6, 2014, at which time
                    management assigned staff 6 of 11 FY 2013 SAOs. The temporary
                    Acting VSC Manager approved the FY 2014 schedule the following
                    day on January 7, 2014—97 days after it was required. Interviews with
                    VARO staff revealed that management gave them 24 hours to complete
                    the assigned SAOs and did not provide training on how to accomplish
                    them.

                    VARO staff completed the Claims Processing Timeliness SAO on
                    January 7, 2014—191 days after its scheduled completion date. The
                    SAO noted the station’s Workload Management Plan (WMP) did not
                    adequately discuss VARO requirements to address VBA’s national
                    initiatives and growing workload. The SAO also noted the WMP did
                    not include effective timeliness measures. During our review of
                    temporary 100 percent evaluations and benefit reductions, we identified
                    37 cases where VARO staff did not take timely action on claims. If the
                    Reno VARO staff had timely completed this SAO, they may have
                    developed procedures in the WMP to minimize these deficiencies.




VA Office of Inspector General                                                                  10
                                          Inspection of the VA Regional Office, Reno, Nevada



Follow-Up to        In our previous report, Inspection of the VA Regional Office, Reno,
Prior VA OIG        Nevada (Report No. 11-00517-204, June 24, 2011), we determined that
Inspection
                    6 of the 11 SAOs we reviewed were incomplete, untimely, or not
                    completed at all due to a lack of adequate VARO management
                    oversight. The Director of the Reno VARO concurred with our
                    recommendation to develop and implement a plan to ensure timely and
                    accurate completion of SAOs. The Director assigned oversight of the
                    SAOs to a management analyst. The OIG closed this recommendation
                    on February 23, 2012, after the VARO submitted its FY 2012 SAO
                    schedule along with two timely completed SAOs.

                    During our February 2014 inspection, we found that VARO
                    management did not provide SAO oversight during FY 2013 due to
                    vacancies in management positions and competing priorities.
                    Interviews with the Director and staff showed that the prior VSC
                    Manager routinely completed the majority of the SAOs; however, he
                    was out of the office frequently during the last 6 months before he
                    retired in November 2013. As a result, VSC staff did not have the
                    experience needed to complete the SAOs on their own. Additionally,
                    during FY 2013, the VARO’s focus was on national initiatives and
                    management did not prioritize SAOs.

                    Recommendations
                    5.	 We recommend the Reno VA Regional Office Director develop and
                        implement a plan to ensure adequate and continuous oversight is
                        provided for the timely completion of the annual Systematic
                        Analyses of Operations schedule and the required 11 Systematic
                        Analyses of Operations.
                    6.	 We recommend the Reno VA Regional Office Director ensure that
                        staff assigned to complete Systematic Analyses of Operations
                        receive training on Veterans Benefits Administration policy
                        regarding the purpose and requirements for completing Systematic
                        Analyses of Operations.

Management          The VARO Director concurred with our recommendations and
Comments            implemented an SAO schedule that includes a reminder sent to each
                    designee 60 days prior to the date each SAO is due. Further, the VSC
                    manager will provide SAO training to each coach with an anticipated
                    completion date of June 30, 2014.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.



VA Office of Inspector General                                                                 11
                                           Inspection of the VA Regional Office, Reno, Nevada



Benefit             VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The
                    amount of monthly compensation to which a veteran is entitled may
                    change because his or her service-connected disability may improve.
                    Improper payments associated with benefit reductions generally occur
                    when beneficiaries receive payments they are not entitled to because
                    VAROs do not take the actions required to ensure veterans receive the
                    correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation
                    would result in reduction or discontinuance of current compensation
                    payments, VSC staff must inform the beneficiary of the proposed
                    reduction in benefits. In order to provide beneficiaries due process,
                    VBA allows 60 days for the veteran to submit additional evidence to
                    show that compensation payments should continue at their present
                    level. If the VARO does not receive additional evidence within that
                    period, RVSRs will make a final determination to reduce or discontinue
                    the benefit. On the 65th day following due process notification, action
                    is required to reduce the evaluation and thereby minimize
                    overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefit reductions. The new policy no
                    longer included the requirement for VARO staff to take “immediate
                    action” to process these reductions. In lieu of merely removing the
                    vague standard, VBA should have provided clearer guidance on
                    prioritizing this work to ensure sound financial stewardship of these
                    monetary benefits.

Finding 3           VARO Lacked Oversight To Ensure Immediate Action On
                    Benefit Reductions

                    VARO staff delayed processing 15 of the 30 claims that required rating
                    decisions to reduce or discontinue benefits. This occurred because of a
                    lack of VARO management oversight. In addition, the VARO’s WMP
                    was ineffective because it did not address the processing of benefit
                    reduction cases requiring rating decisions. As a result, VA overpaid
                    15 veterans, resulting in 76 improper monthly payments totaling
                    $98,133. These improper payments occurred from December 2012 to
                    January 2014.

                    In the case with the most significant overpayment and delay, VSC staff
                    sent a letter to the veteran on July 20, 2012, proposing to reduce a
                    veteran’s temporary 100 percent disability evaluation. The due process
                    period expired on September 23, 2012. However, staff did not take the
                    action required to reduce the evaluation until August 15, 2013, almost

VA Office of Inspector General                                                                  12
                                           Inspection of the VA Regional Office, Reno, Nevada



                    1 year after the due process period ended. As a result, VA overpaid the
                    veteran $24,717 in improper payments over a period of 11 months.

                    The remaining 14 cases showed claims processing delays ranging from
                    1 to 11 months. An average of 5 months elapsed from the time staff
                    should have taken action to reduce the benefits for the 15 cases.

                    Generally, these delays occurred because VARO management did not
                    view this workload as a priority. Interviews with management and staff
                    disclosed that the VBA’s Western Area Headquarters Office gave the
                    VARO instructions to complete specific types of cases that did not
                    include benefit reductions. VSC staff told us benefits reduction cases
                    are easy to complete and would not interfere with achieving their
                    individual daily production requirements; however, management had
                    prioritized the completion of other work. Furthermore, the station’s
                    WMP did not include procedures for management of these cases.

                    VARO management initially concurred with the delays we found in all
                    15 cases, but later withdrew all concurrences and responded that
                    Notification of Errors solely based on timeliness were not an
                    appropriate issue for concurrence or non-concurrence. Again, it is
                    clearly within the OIG’s purview to provide oversight of this high-risk
                    area of benefit reductions. Management’s unresponsiveness is not
                    helpful in addressing the errors we identify as a means of improving
                    claims processing and ensuring accurate benefits delivery.

                    Recommendation

                    7.	 We recommend the Reno VA Regional Office Director amend the
                        workload management plan to ensure oversight and prioritization
                        of benefit reduction cases.

Management          The VARO Director concurred with our recommendation and amended
Comments            the WMP to include a review of notifications that may require a
                    medical reexamination.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendation. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                                  13
                                           Inspection of the VA Regional Office, Reno, Nevada



Appendix A          VARO Profile and Scope of Inspection

Organization        The Reno VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation
                    and employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans, and public affairs.

Resources           As of December 2013, the Reno VARO reported a staffing level of
                    85.4 full-time employees. Of this total, the VSC had 69.4 employees
                    assigned.

Workload            As of December 2013, VBA reported 5,640 pending compensation
                    claims. The average days pending for claims was 164.6 days—
                    49.6 days more than the national target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process
Methodology         disability claims and provide a range of service to veterans. We
                    evaluated the Reno VARO to see how well it accomplishes this
                    mission.

                    We reviewed selected management, claims processing, and
                    administrative activities to evaluate compliance with VBA policies
                    regarding benefits delivery and nonmedical services provided to
                    veterans and other beneficiaries. We interviewed managers and
                    employees and reviewed veterans’ claims folders. Prior to conducting
                    our onsite inspection, we coordinated with VA OIG criminal
                    investigators to provide a briefing designed to alert VARO staff to the
                    indicators of fraud in claims processing.

                    Our review included 29 (10 percent) of 304 temporary 100 percent
                    disability evaluations selected from VBA’s Corporate Database. These
                    claims represented instances in which VBA staff had granted
                    temporary 100 percent disability evaluations for at least 18 months as
                    of December 11, 2013. This is generally the longest period a
                    temporary 100 percent disability evaluation may be assigned without
                    review, according to VBA policy. We provided VARO management
                    with 275 claims remaining from our universe of 304 for its review. We
                    reviewed all 14 available disability claims related to TBI that the
                    VARO completed from July through September 2013. We examined
                    all of the 28 veterans claims available involving entitlement to SMC
                    and related ancillary benefits that VARO staff completed from
                    October 1, 2012, through September 30, 2013.




VA Office of Inspector General                                                                  14
                                            Inspection of the VA Regional Office, Reno, Nevada



                    Prior to VBA consolidating Fiduciary Activities nationally, each
                    VARO was required to complete 12 SAOs. However, since the
                    Fiduciary consolidation, VAROs are now required to complete
                    11 SAOs. Therefore, we reviewed 11 SAOs related to VARO
                    operations. Additionally, we looked at 30 (56 percent) of 54 completed
                    claims that proposed reductions in benefits from July through
                    September 2013.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural
                    improvements it can make for enhanced stewardship of financial
                    benefits. We do not provide this information to require the VAROs to
                    adjust specific veterans’ benefits. Processing any adjustments per this
                    review is clearly a VBA program management decision.

Data Reliability    We used computer-processed data from the Veterans Service
                    Network’s Operations Reports and Awards. To test for reliability, we
                    reviewed the data to determine whether any data were missing from
                    key fields, included any calculation errors, or were outside the time
                    frame requested. We assessed whether the data contained obvious
                    duplication of records, alphabetic or numeric characters in incorrect
                    fields, or illogical relationships among data elements. Further, we
                    compared veterans’ names, file numbers, Social Security numbers,
                    VARO numbers, dates of claim, and decision dates as provided in the
                    data received with information contained in the 101 claims folders we
                    reviewed related to temporary 100 percent disability evaluations, TBI
                    claims, SMC and ancillary benefits, and completed claims involving
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed in conjunction with
                    our inspection of the VARO did not disclose any problems with data
                    reliability.

                    This report references VBA’s STAR data. As reported by VBA’s
                    STAR program as of December 2013, the overall issue-based accuracy
                    of the VARO’s compensation rating-related decisions was 96 percent,
                    the same as VBA’s target of 96 percent. We did not test the reliability
                    of this data.
Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.



VA Office of Inspector General                                                                   15
                                                    Inspection of the VA Regional Office, Reno, Nevada



Appendix B            Inspection Summary

Table 2 reflects the operational activities inspected, applicable criteria, and whether or not
we had reasonable assurance of VARO compliance.

                         Table 2. Reno VARO Inspection Summary

   Operational                                   Criteria                                  Reasonable
    Activities                                                                             Assurance of
    Inspected                                                                              Compliance
    Disability
     Claims
    Processing
 Temporary            Determine whether VARO staff properly reviewed temporary                 No
 100 Percent          100 percent disability evaluations. (38 CFR 3.103(b)) (38
 Disability           CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart
 Evaluations          ii, Chapter 2, Section J) (M21-1MR Part III, Subpart iv,
                      Chapter 3, Section C.17.e)
 Traumatic Brain      Determine whether VARO staff properly processed claims for               No
 Injury Claims        service connection for all disabilities related to in-service TBI.
                      (FL 08-34 and 08-36) (Training Letter 09-01)
 Special Monthly      Determine whether VARO staff properly processed SMC and                  No
 Compensation and     correctly granted entitlement to ancillary benefits. (38 CFR
 Ancillary Benefits   3.350, 3.352, 3.808, 3.809, 3.809a)
   Management
    Controls
 Systematic           Determine whether VARO staff properly performed formal                   No
 Analysis of          analyses of their operations through completion of SAOs.
 Operations           (M21-4, Chapter 5)
 Benefits             Determine whether VARO staff timely and accurately                       No
 Reductions           processed disability evaluation reductions or terminations. (38
                      CFR 3.103(b)(2), 38 CFR 3.105(e), 38 CFR 3.501, M21­
                      1MR.IV.ii.3.A.3.e, M21-1MR.I.2.B.7.a, M21-1MR.I.2.C,
                      M21-1MR.IV.ii.2.f, M21-4, Chapter 2.05(f)(4),
                      Compensation & Pension Bulletin October 2010)
    Source: VA OIG
    CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                            16
                                                  Inspection of the VA Regional Office, Reno, Nevada



Appendix C              VARO Director’s Comments


            Department of
            Veterans Affairs
                                                            Memorandum
    Date:       May 29, 2014
    From:       Director, VA Regional Office Reno, Nevada


    Subj:       Inspection of the VA Regional Office, Reno, Nevada


      To:       Assistant Inspector General for Audits and Evaluations (52)


            1. The Reno VARO’s comments are attached on the OIG Draft Report: Inspection
                of the VA Regional Office, Reno, Nevada.

            2. Please refer questions to the Director’s office at (775) 321-4700.




                Edward Russell

                Director





                Attachment




VA Office of Inspector General                                                                         17
                                            Inspection of the VA Regional Office, Reno, Nevada



                                       VARO Reno OIG SITE VISIT

                                             March, 2014

                                         RO Response (draft)



                    Recommendation 1: The Reno VA Regional Office Director
                    implement a plan to ensure timely and appropriate action on reminder
                    notifications for medical reexaminations.

                    RO Response: Concur. Workload management plan to be amended to
                    include review of write outs for reexamination. Anticipated completion
                    on June 15, 2014.

                    Recommendation 2: The Reno VA Regional Office Director conduct
                    a review of the 275 temporary 100 percent disability evaluations
                    remaining from our inspection universe and take appropriate action.

                    RO Response: Concur. Centralized spreadsheet created to track
                    review/completion of 275 temporary 100 percent disability claims.
                    Anticipated completion on August 31, 2014.

                    Recommendation 3: The Reno VA Regional Office Director ensure
                    required staff receive refresher training on how to identify insufficient
                    traumatic brain injury medical examination reports and return them to
                    the appropriate VA medical facilities for correction.

                    RO Response: Concur. Refresher training scheduled for all DRO’s,
                    RQRS’s and Spec Ops. Personnel. Anticipated completion on
                    July 31, 2014.

                    Recommendation 4: The Reno VA Regional Office Director conduct
                    training on the proper processing of special monthly compensation and
                    ancillary benefits claims and implement a plan to assess the
                    effectiveness of that training.

                    RO Response: Concur. Training to be scheduled by VSCM.
                    Anticipated completion on August 31, 2014.

                    Recommendation 5: The Reno VA Regional Office Director develop
                    and implement a plan to ensure adequate and continuous oversight is
                    provided for the timely completion of the annual Systematic Analyses
                    of Operations schedule and the required 11 Systematic Analyses of
                    Operations.
                    RO Response: Concur. SAO schedule implemented and reminders
                    sent to respective designee 60 days prior to due date. SAO’s are due to


VA Office of Inspector General                                                                   18
                                           Inspection of the VA Regional Office, Reno, Nevada



                    VSCM 10 workdays prior to the due date for concurrence. Completed
                    on May 1, 2014.

                    Recommendation 6: The Reno VA Regional Office Director ensure
                    that staff assigned to complete Systematic Analyses of Operations
                    receive training on Veterans Benefits Administration policy regarding
                    the purpose and requirements for completing Systematic Analyses of
                    Operations.

                    RO Response: Concur. VSCM to provide training to coaches. (Site
                    Visit SAO Best Practices). Anticipated completion on June 30, 2014.

                    Recommendation 7: The Reno VA Regional Office Director amend
                    the workload management plan to ensure oversight and prioritization of
                    benefit reduction cases.

                    RO Response: Concur. Workload management plan to be amended to
                    include review of write outs for reexamination. Anticipated completion
                    on June 30, 2014.




VA Office of Inspector General                                                                  19
                                        Inspection of the VA Regional Office, Reno, Nevada



Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact	           For more information about this report,
                                             please contact the Office of Inspector
                                             General at (202) 461-4720.
                      Acknowledgments        Brent Arronte, Director
                                             Ed Akitomo
                                             Orlan Braman
                                             Bridget Byrd
                                             Vinay Chadha
                                             Michelle Elliott
                                             Lee Giesbrecht
                                             Scott Harris
                                             Dana Sullivan
                                             Nelvy Viguera Butler




VA Office of Inspector General                                                               20
                                                Inspection of the VA Regional Office, Reno, Nevada



Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Western Area Director
                    VA Regional Office Reno Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Dean Heller, Harry Reid
                    U.S. House of Representatives: Mark E. Amodei, Joseph J. Heck,
                    Steven A. Horsford, Dina Titus




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 21
